<html>
<title> - IMPLEMENTATION OF THE 2018 FARM BILL: RURAL DEVELOPMENT AND ENERGY PROGRAMS</title>
<body><pre>[Senate Hearing 116-416]
[From the U.S. Government Publishing Office]


                                         S. Hrg. 116-416

                 IMPLEMENTATION OF THE 2018 FARM BILL:
                 RURAL DEVELOPMENT AND ENERGY PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 7, 2019

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]           


       Available via the World Wide Web: http://www.govinfo.gov/
       
                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-890 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------        
       
       
       
           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY


                     PAT ROBERTS, Kansas, Chairman
MITCH McCONNELL, Kentucky            DEBBIE STABENOW, Michigan
JOHN BOOZMAN, Arkansas               PATRICK J. LEAHY, Vermont
JOHN HOEVEN, North Dakota            SHERROD BROWN, Ohio
JONI ERNST, Iowa                     AMY KLOBUCHAR, Minnesota
CINDY HYDE-SMITH, Mississippi        MICHAEL BENNET, Colorado
MIKE BRAUN, Indiana                  KIRSTEN GILLIBRAND, New York
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
CHARLES GRASSLEY, Iowa               TINA SMITH, Minnesota
JOHN THUNE, South Dakota             RICHARD DURBIN, Illinois
DEB FISCHER, Nebraska

             James A. Glueck, Jr., Majority Staff Director
                DaNita M. Murray, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director
               Mary Beth Schultz, Minority Chief Counsel
                            
                            C O N T E N T S

                              ----------                              

                       Thursday, November 7, 2019

                                                                   Page

Hearing:

Implementation of the 2018 Farm Bill: Rural Development and 
  Energy Programs................................................     1

                              ----------                              

                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     2

                                Panel I

Rupe, Chad, Administrator, Rural Utilities Service, U.S. 
  Department of Agriculture, Washington, D.C.....................     6
Lammers, Bruce, Administrator For Rural Housing Service, U.S. 
  Department of Agriculture, Washington, D.C.....................     6
Brand, Bette, Administrator Rural Business Service, U.S. 
  Department of Agriculture, Washington, D.C.....................     6

                                Panel II

Hayward, Keith, General Manager and CEO, North East Mississippi 
  Electric Power Association, Oxford, MS.........................    24
Sievers, Bryan, Manager, AgriReNew, Glenora Feed Yard, and 
  Sievers Family Farms, Stockton, IA.............................    25
Stanley, Michael, CEO, Grace Health, Corbin, KY..................    27
Dwyer, Jeff, Ph.D., Director, MSU Extension, East Lansing, MI....    29
                              ----------                              

                                APPENDIX

Prepared Statements:
    Rupe, Chad...................................................    40
    Hayward, Keith...............................................    48
    Sievers, Bryan...............................................    54
    Stanley, Michael.............................................    66
    Dwyer, Jeff, Ph.D............................................    81

Question and Answer:
Brand, Bette:
    Written response to questions from Hon. Debbie Stabenow......    88
    Written response to questions from Hon. Joni Ernst...........    90
    Written response to questions from Hon. David Purdue.........    90
    Written response to questions from Hon. John Thune...........    91
    Written response to questions from Hon. Patrick Leahy........    92
    Written response to questions from Hon. Sherrod Brown........    92
    Written response to questions from Hon. Amy Klobuchar........    94
    Written response to questions from Hon. Robert P. Casey, Jr..    95
Lammers, Bruce:
    Written response to questions from Hon. Debbie Stabenow......    99
    Written response to questions from Hon. Chuck Grassley.......   100
    Written response to questions from Hon. John Thune...........   101
    Written response to questions from Hon. Sherrod Brown........   101
    Written response to questions from Hon. Robert P. Casey, Jr..   102
Rupe, Chad:
    Written response to questions from Hon. Debbie Stabenow......   104
    Written response to questions from Hon. John Hoeven..........   107
    Written response to questions from Hon. John Thune...........   109
    Written response to questions from Hon. Patrick Leahy........   110
    Written response to questions from Hon. Sherrod Brown........   111
    Written response to questions from Hon. Michael Bennet.......   112
    Written response to questions from Hon. Robert P. Casey, Jr..   114
Sievers, Bryan:
    Written response to questions from Hon. Debbie Stabenow......   117
    Written response to questions from Hon. Amy Klobuchar........   118
Stanley, Michael:
    Written response to questions from Hon. Debbie Stabenow......   120
    Written response to questions from Hon. Robert P. Casey, Jr..   121
Dwyer, Jeff, Ph.D.:
    Written response to questions from Hon. Debbie Stabenow......   123
    Written response to questions from Hon. Robert P. Casey, Jr..   125

 
  IMPLEMENTATION OF THE 2018 FARM BILL: RURAL DEVELOPMENT AND ENERGY 
                                PROGRAMS

                              ----------                              


                       THURSDAY, NOVEMBER 7, 2019

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present or submitting a statement: Senators Roberts, 
McConnell, Boozman, Hoeven, Ernst, Hyde-Smith, Braun, Grassley, 
Thune, Fischer, Stabenow, Brown, Bennet, Gillibrand, Casey, and 
Smith.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order. Today's hearing advances this Committee's continued 
oversight of the Department of Agriculture's implementation of 
the 2018 Farm Bill.
    A principal duty of this Committee is to ensure that the 
Department has the authority and resources to provide our 
Nation's agriculture producers with the necessary tools to feed 
a troubled and hungry world, as well as this country. The 
responsibility of the Committee and the USDA does not stop 
there. It is also critical this partnership supports rural 
businesses, electric cooperatives, telecom providers, schools, 
health clinics, renewable energy, biobased product 
manufacturers, and other essential service providers that serve 
as the backbone of the rural communities our farmers and 
ranchers all call home.
    Over the past two years, at our two field hearings in 
Kansas and Michigan, and at a hearing here in Washington, we 
had the opportunity to listen to witnesses representing both 
the Administration and rural communities, as they discussed 
changes to the Farm Bill that would help rural development. We 
listened and we acted by adopting many of these recommendations 
in the bipartisan 2018 Farm Bill.
    On our first panel today we are pleased to have the 
administrators for the three agencies within the Office of 
Rural Development at the Department of Agriculture: the Rural 
Utility Service, the Rural Housing Service, and the Rural 
Business Cooperative Service. This panel will discuss the 
Department's vision for fostering growth and economic 
prosperity throughout rural America, which is sorely needed, 
and will highlight the progress made in implementing changes 
this Committee legislated in the rural development and energy 
titles of the Farm Bill.
    For our second panel of witnesses, we will hear from a 
broad set of private sector stakeholders, including the CEO of 
one of Mississippi's leading rural electric cooperative, who 
works every day to provide essential utility services to 
farmers and ranchers in small towns; an Iowa farmer--imagine 
that, Joni, an Iowa farmer--who utilizes resources provided by 
the Department to help build an on-farm anaerobic digester 
system and a renewable energy facility, something we are doing 
in Dodge City, Kansas, by the way, Joni. We will have to have 
you out there. We will make you an Honorary Amanda Blake. 
Nobody remembers that. I understand that, but that is the way 
it is.
    A Kentucky health care provider who has leveraged a USDA 
distance learning and telemedicine grant to expand service 
capabilities throughout his State. This provides the most 
vulnerable populations with access to affordable health care 
and support in fighting the opioid addiction crisis that is 
plaguing so many of our rural communities.
    Finally, the director of Michigan State University 
Extension--go green and white--who is working with both state 
and federal stakeholders to find ways to address mental health 
challenges that our farmers face every day.
    We look forward to our discussion today regarding the rural 
development and energy titles of the Farm Bill. These programs 
play an important role in providing our rural communities with 
the economic tools they need to grow and thrive.
    I now recognize the distinguished Senator from Michigan for 
any opening remarks she would like to make.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you, Mr. Chairman. I have 
really been looking forward to this hearing and welcome our 
witnesses on both of our panels today. This is so important. 
Everybody in this room knows that rural America is the backbone 
of the economy, just like my hometown, Clare, in northern 
Michigan. All across the country, people in rural communities 
create businesses, run family farms, work in manufacturing, and 
really create quality of life for so many families.
    We should be doing everything we can to celebrate and 
strengthen our small towns I know we all believe that around 
this table. In the 2018 Farm Bill, we made smart investments to 
grow rural opportunity and ensure every American can enjoy a 
high quality of life, no matter where they live.
    When I visit rural Michigan, one of the top concerns I 
hear--and I know my colleagues hear as well--is the need to 
access high-speed internet in order to participate in the 21st 
century economy. In the Farm Bill, we increased the funding 
available for high-speed internet deployment 15 times higher 
than the previous amount because it is so central to moving 
forward. I understand the USDA is currently writing new rules 
for the Farm Bill improvements. I urge the Department to meet 
its goal to complete the rules by December so that Congress can 
fund this new and improved program.
    Families in rural communities are also concerned about 
access to health care, especially with the mental health and 
opioid crisis taking a devastating toll on small towns. We 
addressed this head-on through expanded telemedicine and 
community facility investments to provide critical treatment 
for those who suffer from addiction and mental illness.
    To ensure that every family has safe drinking water, we 
prioritized rural water infrastructure investments for small 
towns dealing with dangerous contaminants like PFAS.
    Rural communities also need strong locally owned 
businesses, and good high-paying jobs. Rural small business 
investments are critical to creating jobs, promoting 
entrepreneurship, and revitalizing Main Street.
    In States like Michigan where we make things and grow 
things, agriculture and manufacturing are both at the heart of 
the economy. That is why we created opportunities in the last 
Farm Bill to support biobased manufacturing. Instead of using 
petroleum, companies are creating new products from American-
grown crops.
    We also provided permanent funding for value-added 
agriculture grants to help farmers grow their business, whether 
they are turning locally grown tomatoes into salsa or corn into 
ethanol.
    Investing in renewable energy also leads to job creation 
and helps us address the climate crisis. In the 2014 Farm Bill, 
I included permanent mandatory funding for the popular Rural 
Energy For America program, REAP, which helps farmers and 
businesses lower their utility bills through installing 
renewable energy systems and making efficiency upgrades. From 
hog producers to organic fruit growers, these grants have 
helped a wide variety of Michigan farmers and those across the 
country save money and become more energy efficient.
    We have also seen wineries, breweries, restaurants across 
our State and the country install solar arrays to power their 
rural small businesses.
    As USDA implements the Farm Bill, we need this 
Administration to step up to strengthen our rural economy. Over 
the past three years it has been disheartening to see the Trump 
administration continue to target rural America and the Farm 
Bill for cuts. We need to be investing more in rural 
communities, not less. Eliminating rural infrastructure and 
small business investments moves us in the wrong direction.
    On the issue of renewable fuels, unfortunately, this 
Administration continues to let down American farmers and 
biofuel producers by caving to the demands of the oil industry. 
We have seen some discussion of changing that, but I have yet 
to see this really happening.
    Additionally, I am disappointed that the Committee has not 
received a nominee for an Under Secretary of Rural Development. 
We re-established this important position in the Farm Bill to 
be a staunch advocate for rural America within the 
Administration. We appreciate all of you and your focus, but we 
agreed on a bipartisan basis in Congress that we needed a 
focused leader to address all of the concerns facing small 
towns and rural communities.
    It is great to see our three rural development 
administrators here today. I look forward to hearing your 
perspectives. We appreciate your work.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator.
    Today, I am pleased to welcome the three administrators 
that oversee the vital agencies within the USDA Office of Rural 
Development. Ms. Bette Brand is the Administrator of the Rural 
Business Service. She joined the USDA after 35 years with Farm 
Credit of the Virginias, where she most recently served as 
chief advocate for the agriculture industry and rural 
businesses. Welcome, Bette. We appreciate it.
    Next we have Mr. Bruce Lammers, the Administrator of the 
Rural Housing Service. Mr. Lammers has had more than 35 years 
of experience leading public-private partnerships at national 
community-oriented lending institutions, including serving as a 
former CEO for a bank that was a national leader in government 
guaranteed lending. Thank you for joining us today, Mr. 
Lammers.
    Last we have Mr. Chad Rupe, who is the Administrator of the 
Rural Utilities Service. Prior to coming to Washington, Mr. 
Rupe served as the Rural Development State Director of 
Wyoming--big sky country--from 2017 to 2019. Before joining the 
Department, Mr. Rupe spent more than 13 years in the banking 
industry, specializing in commercial lending in Wyoming. 
Notably, he began his service to our country in the United 
States Army, so thank you for your service, Mr. Rupe.
    In the interest of time, we have asked the Department to 
provide one opening statement on behalf of all three 
administrators, with each available to answer questions from 
members on the Committee. Perhaps, I think it would be very 
advisable if I would now recognize the Senator from Kentucky. 
Leader, do you plan to introduce your Kentucky witness on the 
second panel at this point?
    Senator McConnell. Well, I appreciate that opportunity, Mr. 
Chairman, if I may.
    Chairman Roberts. Well, the Senator is recognized.
    Senator McConnell. I would go right ahead and do it. 
Senator Stabenow expected me to make a speech on hemp.
    [Laughter.]
    Senator McConnell. Instead of speaking on hemp, I am here 
today to introduce a constituent of mine. As we continue 
reviewing the implementation of last year's Farm Bill, I am 
proud this morning to introduce a Kentuckian who is working to 
move the ball forward on the legislation's rural development 
goals.
    Michael Stanley is the CEO of Grace Health, a community 
health center providing a wide range of services to more than 
35,000 residents of southeastern Kentucky, which is down in the 
Appalachian region of my State. With a focus on vulnerable and 
low-income Kentuckians, Grace Health is an indispensable 
resource tacking the systemic health challenges in rural 
communities.
    As our colleagues on the Committee know, access to health 
care in places like the Appalachian region is an important part 
of the Farm Bill's Rural Development Title. Healthy communities 
are better able to attract investment, encourage job creation, 
and support the farm economy.
    Unfortunately, too many of my constituents from this 
beautiful region suffer from health challenges, which are 
compounded by severe physician shortage, and all too frequent 
substance abuse.
    For more than three decades, Mike has been working to help 
Kentuckians overcome these challenges by leading and expanding 
health care programs in the eastern part of our State. He is 
improving access to services and delivering some rather 
impressive results.
    When Mike joined Grace Health in 2012, there were only a 
couple of dozen employees and two clinics, with a small service 
area. Today they have nearly 300 personnel, seven clinic sites 
across six counties. Mike and his team place a strong emphasis 
on bringing medical professionals into previously underserved 
areas. For example, Grace Health operates almost 40 school-
based health clinics, providing Kentucky's next generation with 
medical and dental care. They are opening new doors to 
treatment and long-term recovery in communities devastated by 
opioid and substance abuse.
    Today, Mike will shed light on Grace Health's telehealth 
programs, which represent a much-needed investment into eastern 
Kentucky and its future. Through programs like the USDA 
Distance Learning and Telemedicine Grants, Mike and his team 
can continue providing high-level care to more patients in 
hard-to-reach areas than ever before. These federal grants also 
give Grace Health the opportunity to solidify partnerships with 
other health care providers and development organizations. 
Mike's experience will be a helpful guide as we evaluate the 
Federal Government's policies designed to tap into potential 
that we have in rural America.
    I look forward to his recommendations to the Committee on 
how we can continue to support his work and help encourage 
healthy outcomes and economic development in rural communities.
    Thank you, Mr. Chairman, Senator Stabenow, for allowing me 
to step in and say these--give these remarks on behalf of my 
constituent. Thank you very much.
    Chairman Roberts. It is our privilege, Leader, and thank 
you so much for coming and making that excellent statement.
    It occurs to me that unless I recognized the distinguished 
President Pro Tem of the Senate, who is also the Chairman of 
the Senate Finance Committee, he always--this is the first 
time, I would say to the Senator from Michigan, that he has not 
come in first and asked to go first, because of his duties 
elsewhere. I am a little alarmed as to whether or not we should 
recognize him now or not.
    At any rate, Senator Grassley, do you have anything to say, 
because of your important duties elsewhere?
    Senator Grassley. Since I did not think you would call on 
me, I have already taken care of it by going to Mr. Sievers, a 
very important constituent of mine, and telling him that in 
about five minutes I am going to be leaving to open the Senate, 
and then I am going to the Senate Judiciary Committee to make a 
quorum to get more judges out. Then I am going to come back 
here and hopefully he will still be on the program and I can 
ask him some questions.
    I am glad that the Senator from Kansas has decided to get 
the expertise that we have in the No. 1 agricultural State, in 
the State of Iowa, and invite Mr. Sievers in. Thank you for 
doing that.
    Did it surprise you I did not yell at you?
    [Laughter.]
    Chairman Roberts. Yes.
    Senator Grassley. That is what I thought.
    Chairman Roberts. Are you going to depart immediately or 
are we going to have you here for five minutes and then you are 
going to come back?
    Senator Grassley. I am going to stay for five minutes.
    Chairman Roberts. I see.
    Senator Grassley. I have already been here 15 minutes.
    Chairman Roberts. I understand that.
    Senator Grassley. Okay.
    Chairman Roberts. You were right on time. We appreciate 
that.
    As a matter of fact, I noted the fact that I could not see 
Bette Brand because you were leaning forward, but that is okay. 
You might want to be like Coop, who just left here, and just 
lean back so I could see. There we go. Thank you.
    Let's get reorganized if we can here.
    Senator Grassley. I need to adjust my chair so it will lean 
back.
    Chairman Roberts. Mr. Rupe, I think I am going to call you 
first, and I understand you have a prepared statement.
    Thank you again, sir, for coming.

STATEMENT OF CHAD RUPE, ADMINISTRATOR, RURAL UTILITIES SERVICE, 
   UNITED STATES DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

ACCOMPANIED BY BRUCE LAMMERS, ADMINISTRATOR FOR RURAL HOUSING SERVICE, 
            UNITED STATES DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.; 
            AND BETTE BRAND, ADMINISTRATOR FOR RURAL BUSINESS 
            COOPERATIVE SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
            WASHINGTON, D.C.
    Mr. Rupe. Good morning, Chairman Roberts, Ranking Member 
Stabenow, and distinguished members of the Committee. My name 
is Chad Rupe and I am the Administrator for USDA Rural 
Development's Rural Utility Service. I am accompanied this 
morning by my colleagues, Administrator Bette Brand, who 
oversees Rural Business Cooperative Service, and Administrator 
Bruce Lammers, who oversees Rural Housing Service.
    The three of us administer unique programs and resources 
that help bring prosperity and opportunity to rural areas. We 
are honored to be here with you this morning to share Rural 
Development's efforts regarding implementation of the 2018 Farm 
Bill.
    Rural Development's mission is to increase economic 
opportunity and improve the quality of life for rural 
Americans. Together, we manage a loan portfolio of more than 
$225 billion, and our investments support rural residents 
looking for affordable housing, municipalities seeking water 
infrastructure and community facilities, and rural businesses, 
cooperatives, and agricultural producers looking to expand into 
new markets. We are also a vital resource of financing for 
rural broadband and electric infrastructure.
    As you know, rural communities have unique challenges due 
to their location and lack of access to modern technologies, 
like broadband infrastructure. However, while these challenges 
do exist, rural America also has unique resources that, when 
paired with their inherent grit and determination, provide 
opportunities for prosperity. Our goal at USDA Rural 
Development is to partner with our Nation's rural communities 
through the programs and resources that Congress has made 
available in order to connect them to a world of opportunity 
and ultimately prosperity.
    The 2018 Farm Bill reauthorizes many Rural Development 
programs that are vital to helping rural communities build 
stronger economies, create jobs, and improve their overall 
quality of life. We have been working effectively and 
efficiently to implement the 2018 Farm Bill, and have 
successfully started to implement provisions, such as the new 
loan grant option within the Rural Broadband Program, expanding 
access to credit for rural communities by increasing the 
population limits for Community Facilities and Water and Waste 
Disposal Programs, and establishing the Local Agriculture 
Markets Program (LAMP).
    As the administrators overseeing these programs, we will 
continue to work with members of the Committee to address the 
unique needs of rural America. We thank you for inviting us 
before the Committee to share the important work we do. We 
appreciate your continued interest and support of Rural 
Development programs, because we believe when rural America 
thrives, all of America thrives.
    At this time we will answer your questions.

    [The prepared statement of Mr. Rupe can be found on page 40 
in the appendix.]

    Senator Boozman.
    [Presiding.] Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair. I want to start with 
Mr. Lammers. I do appreciate everyone being here today. Thank 
you so much.
    Mr. Lammers, this week I finished my annual 99-county tour 
across Iowa, and one of the biggest concerns I heard this year 
was a lot of affordable rural housing, and that comes up over 
and over again.
    As you point out in your testimony, the 2018 Farm Bill 
included several provisions that expand eligibility for rural 
housing service programs. What steps can we take to build on 
these provisions, as we work to allow the communities to have 
more opportunities for financing in the coming months and 
years?
    Mr. Lammers. Thank you for your question. You happen to be 
a neighbor of mine, having come from Wisconsin, and so I 
appreciate your question.
    During the last year, we served families with single-family 
housing loans as well as multi-family housing loans, and I 
believe our allocation of direct loans out of the 502 program 
was $1 billion, and we fully utilized that during the year. I 
am very proud that we were able to accomplish that.
    Our guaranteed loan program is really based upon the 
demands of customers that approach banks, and I think it is a 
marketing program that the banks view as a positive product for 
them. We provide housing through those two programs as well as 
the multi-family program, and Farm Labor Housing.
    Senator Ernst. You said ``fully used.'' That would indicate 
a necessity to continue those programs on into the future as 
well then. Is that correct?
    Mr. Lammers. I am pleased that we were able to fully 
utilize it. The 502 program provided 6,185 home loans to 
families last year, and that is a $1 billion program.
    Senator Ernst. Okay. Very good, and I appreciate that. It 
is an area we need to continue to work on.
    Ms. Brand, I would like to visit with you about the 
biorefinery program. It has been a really vital source of job 
creation in rural communities since its creation. However, 
under the 2014 Farm Bill that was a problem with the program, 
requiring refiners who wanted to produce renewal chemicals from 
agricultural feed stocks to also producing an advanced biofuel 
which significantly limited that program's effectiveness.
    The 2018 Farm Bill fixed it, fixed that problem, by 
ensuring eligibility with these types of technologies and 
creating parity for standalone renewable chemical 
manufacturers. Can you give us an update on the agency's work 
in this area and the implementation, how we will get to that 
fix?
    Ms. Brand. Yes. Thank you very much for that question, 
Senator. The Biorefinery, Renewable Chemical, and Biobased 
Product Manufacturing Assistance Program, indeed does include 
now the chemical, the balance, so that a facility could produce 
either both or one or the other, and that has been implemented 
through--will be--it has been implemented, and any applications 
that are on hand right now will be able to apply to any of 
those products, and it will be codified the spring of 2020.
    Senator Ernst. Okay, and thank you again for working on 
that as well. It is really important to my home State, 
obviously.
    With that, I will yield back time, Chairman.
    Chairman Roberts. Senator Stabenow. Yes, we go Republican, 
Democrat, and that is how we work.
    Senator Stabenow. I was going to yield to the Chairman, Mr. 
Chairman, but thank you very much. Thank you to all of you.
    First to Mr. Rupe. The Farm Bill prioritized funding for 
communities that are dealing with water safety issues. I think 
none of us wanted to even have to learn what PFAS chemicals 
were, and now it is very serious. We are identifying real 
health hazards and communities are extremely concerned.
    We identified this and made it a priority in the Farm Bill. 
However, this Administration has repeatedly proposed budget 
cuts of more than 50 percent to these critical water 
infrastructure programs, despite a large backlog of projects.
    What is the status of this Farm Bill requirement and what 
kind of outreach are you doing to ensure rural communities know 
that the Farm Bill provides tools and resources to address 
contaminated drinking water?
    Mr. Rupe. Senator, thank you for the question. First of 
all, I would like to reaffirm that last year we served over 2 
million rural Americans with clean drinking water, and I think 
that is an important note. We processed $1.7 billion worth of 
loan and grant requests to serve rural Americans, and so I 
would not lose sight of that issue.
    Now specific to outreach and communication, with the 2018 
Farm Bill, we had an interagency task force on rural water 
quality that was established as a result of that, and earlier 
this year we met with public officials, stakeholders, and our 
Federal partners to begin reviewing what is needed to be able 
to support that issue. We plan to issue a report by December on 
our progress, related to that issue.
    Having said that, within our program we specifically do 
address imminent issues and immediate dangers for communities 
through our ECWAG program--sorry for the acronym but we are 
riddled with them--but those types of programs immediately 
address needs for emergency situations, for people who have 
issues that are directly related to immediate health and safety 
risks.
    Of the money that we obligated last fiscal year, we 
addressed 374 health risks out of the 500 projects that we did 
throughout the United States. I believe that we are actively 
engaging in outreach to our communities.
    Senator Stabenow. I would encourage you to continue to do 
that. In Michigan, I think we may be ahead just because they 
did more aggressive identification than other places, but it is 
very alarming what we are seeing.
    Mr. Rupe. Yes, and I was very happy to have visited 
Michigan last month and speak with a gentleman who was critical 
in helping address that. We have engaged with stakeholders in 
Michigan to help work on that aspect of it.
    Senator Stabenow. Great. Ms. Brand, I wanted to talk a 
little bit about the Rural Energy for America Program, REAP, 
which, as you know, is one of the essential tools for improving 
energy efficiency and deploying alternative energy and 
combating the climate crisis. It is very popular in Michigan 
and I am sure in other areas, which is why we gave it 
permanent, mandatory funding in 2014.
    Unfortunately, though, I have been hearing concerns that 
USDA is not promoting the program as it once was. What are you 
doing to ensure farmers, ranchers, rural small businesses are 
aware of the REAP program and the opportunities to apply for 
grants and loans?
    Ms. Brand. Well, thank you for that question. We have very 
much a team approach to outreach with the REAP program as well 
as our other programs, both at the national level, our national 
office team participates in national meetings. In fact, there 
was just the Federal partners that we partner with and provide 
outreach with but also stakeholders and national trade group 
meetings. The State offices work with their individuals in 
their localities to talk about the programs and help both 
farmer producers and small businesses understand the benefits.
    I have been out in the State and anywhere from a small 
$12,000 REAP announcement to a small business in Michigan, to 
also--and Virginia, an announcement where there was a hospital 
that benefited from solar panels and reduced their energy 
efficiency. I would say that we have done a lot and will 
continue to do more to make sure that people understand the 
benefits of that program.
    Senator Stabenow. Thank you. Finally, I know I am running 
out of time, but Mr. Rupe, I want to ask you a question on 
rural broadband. Every single person on this Committee could 
tell you stories of the challenges because we do not have rural 
broadband. We made rural broadband a huge priority in the Rural 
Development Title of the Farm Bill.
    Will the Administration advocate for full funding, the $350 
million, for the farm bill broadband program, as we go forward?
    Mr. Rupe. Thanks, Senator, for the question. We share your 
concern for broadband access throughout rural America. It was 
central to the task force report that was submitted to the 
President shortly after the Secretary came on board, so it is 
central and we recognize that issue.
    Having said that, I think it is important to recognize the 
full effort that we have engaged in that light. We have 
addressed it through the American Broadband Initiative, and 
through that American Broadband Initiative we are working with 
our Federal partners to address all of the issues, to help 
modernize delivery, streamline our approach, and more 
effectively leverage the Federal dollars that we spend.
    Senator Stabenow. What Federal dollars, though? The issue 
has been there has not been enough of a priority in terms of 
Federal dollars, which is why we came together to prioritize it 
in the Farm Bill. I appreciate efficiency with what you have, 
but if we are going to actually grow the economy and quality of 
life in rural America, this is central. We are going to need 
the Administration weighing in very strongly to make sure this 
is a priority in the budget.
    Mr. Rupe. Yes, ma'am. We are working very hard to fully 
deploy, first of all, the ReConnect funding that was 
appropriated. We are in the middle of offering awards out to 
many applicants throughout the United States. We received $1.4 
billion worth of applications on the first $600 million that we 
received. Early next year we plan to offer an additional $550 
million that was appropriated by Congress in a second round of 
funding, and we anticipate having high interest in those 
programs as well.
    In addition to that, we are very happy to provide technical 
assistance, if requested, to help address some of the issues 
associated with funding, and how we best approach that on an 
overall basis. We are actively engaged in marketing our 
programs to ensure that we effectively deploy them.
    We also work very effectively and in a very friendly way 
with our partners at both the FCC and NTIA, to make sure that 
we understand where funding is needed, to where we can help 
leverage private investments, as well as Federal dollars and 
State dollars to help address this issue. We believe that by 
partnering with not only the private stakeholders as well as 
the nontraditional folks that would normally not be in the 
broadband business, that are expanding into that area, we think 
those are very effective ways to help leverage that 
partnership. It is not just a Federal Government solution but 
it is truly a community solution that is driven from the local 
level with shared partnerships and stakeholders at every level.
    Senator Stabenow. Thank you, Mr. Chairman.
    Chairman Roberts. I thank the Senator.
    Mr. Rupe, you can take this on, and then any member of the 
panel that wishes to add anything that they think is pertinent, 
please feel free.
    Last week, the Department notified the Committee of 
upcoming plans to close 11 Rural Development offices across the 
country. On behalf of the entire RD mission area, can the panel 
provide any update on this issue, discuss what, if any, impact 
this will have on constituent services in each State affected 
by a closure? Other than the two offices in Kansas, are there 
any other vacant offices in the country that have not yet been 
closed?
    Please, sir.
    Mr. Rupe. Senator Roberts, thank you for the question. The 
proposed office closures, I can say, will not negatively affect 
customer service for our programs. The States where office 
closures are occurring will continue to have multiple field 
offices, and our employees in those offices are able to 
identify a wide range of community and economic development 
resources for local leaders, business owners, families, farmers 
and ranchers, schools, nonprofits, cooperatives, and tribes.
    There are other vacant offices in the country that have not 
been closed, and in any office closure proposal where employees 
are stationed, the following applies: no employees are losing 
their jobs, and relocations are offered if needed for an 
employee. RD is continuously evaluating the optimal location of 
staff and resources to serve the customer and deliver programs 
to rural communities.
    I can affirmatively state that as a former career employee 
in the agency, as a former community banker where we did not 
have a Rural Development office in our community, and as a 
former State director, customer service is not simply a matter 
of having an employee in a certain office, but more of having a 
strong employee, with strong customer service skills, in the 
optimal location.
    Chairman Roberts. Help me understand this. It is probably 
counterintuitive. The two offices that are being closed in 
Kansas are Garden City, Kansas, which is a thriving hub in 
southwest Kansas--I hasten to add, along with Dodge City, and 
Liberal--but Garden City is an area that is really experiencing 
a growth period, which is good news, of course.
    The other city being Manhattan, Kansas, home of the ever-
optimistic and fighting Wildcats. We are seeing a lot of growth 
there too, especially with the BRI there and then the national 
bioagriculture facility that is under construction. You are 
closing an office there and then perhaps providing your service 
to other areas, or you mentioned field offices.
    People are asking me why--you know, why close in Garden 
City when they are on the move? Why close in Manhattan, because 
that is probably the central focus of agriculture in our State?
    Mr. Rupe. Senator, I am happy to address that. I think that 
in any community when you want to see economic development and 
growth, that is the whole point of what we do. Having said 
that, I can address it from my perspective, from my hometown in 
Douglas, Wyoming, where we have a strong economy currently, and 
we still do not have a Rural Development office. There are 
plenty of services that are offered to the community where I 
come from, just as they would be in Manhattan or any other 
rural community.
    Having said that, the last time that Rural Development had 
any major change was over 25 years ago, and if we all think 
back 25 years ago how much the economy has changed and how much 
corporations have evolved, for us not to evolve with that just 
does not make sense. I mean, we talk continuously about 
broadband and access and the changes to the economy by having 
modern technology. Our organization should take advantage of 
modern technology as well to deliver those services.
    Again, I believe it comes back to having the right 
relationships and the right people in the optimal locations. It 
is not simply having an office location in any single community 
but more of having the right people in the optimal location who 
have great relationships with the local leaders and are willing 
to engage at the local level. I do not believe that you 
necessarily have to have your office in that certain spot to 
address every need, because we have a tremendous need 
throughout the United States and we cannot possibly have a 
location in every single community that needs it. We have to 
deliver our programs efficiently and effectively, and engage it 
to where everybody can take advantage of the development, not 
just certain communities.
    Chairman Roberts. I appreciate that answer. Please keep us 
posted if we can be of help to you, when you think that maybe 
some of these decisions could be revisited or, as you have 
said, really provide the best service where it is vitally 
needed.
    Let me ask you one other question real quick. How is the 
Rural Utility Service coordinating with the FCC on rural 
broadband issues? What is the most significant impact this 
coordination will have on rural broadband access?
    Mr. Rupe. Senator, thank you for the question. I think it 
is important to recognize that we have a very strong and 
positive working relationship with the FCC. The Secretary of 
Agriculture, Sonny Perdue, as well as the FCC chairman have a 
great relationship, and that permeates down to the staff level. 
We meet with the FCC on a regular basis.
    I think it is also important to recognize there are 
significant differences in the delivery of our programs. 
Whereas the FCC provides operational cost reimbursement in 
high-cost areas, we provide the capital construction costs to 
be able to build those services into a community. We have 
distinctly different missions and different funding 
methodologies to achieve that.
    However, common to both of us is the fact that we have got 
to have good mapping to be able to determine where a service is 
and where it is not. I think the FCC has done a superb job this 
summer of working to try to improve their methodology for 
collecting data. We are working with not just the FCC but also 
with the NTIA and with private stakeholders and State-level 
governments to properly understand what is currently out there. 
What we have found when we have put boots on the ground, in 
going out and doing site validations, is oftentimes there is no 
single source that has the absolute correct data to be able to 
recognize who currently has service on a 24/7 daily 
availability at the FCC standard.
    We are working diligently and we are meeting regularly to 
help accomplish that mission to where we can effectively deploy 
the Federal dollars and partner with private investments, so we 
truly can leverage and make the right impact in the right 
locations.
    Chairman Roberts. I thank you for your answer, and again, 
please keep us posted. I know that Senator Stabenow and every 
member of the Committee is interested in this issue.
    Senator Smith?
    Senator Smith. Thank you, Chair Roberts and also Ranking 
Member Stabenow. I want to just first, in addition to thanking 
you for being here today, just thank you so much for the topic 
of this hearing.
    Since I have been Senator I have traveled all over my 
State, to small towns and rural areas, and I think a lot of 
times when we go to these parts of our States, and we all have 
them, we show up sometimes with this attitude of like, ``Tell 
me all about your problems,'' instead of showing up and saying, 
``What can we learn?'' ``What are you doing that is working, 
that we can support here in Washington?''
    With that spirit in mind, as I visit the communities in my 
State, I have been so inspired by the creativity and the 
innovation that I see. Certainly there are challenges, 
challenges that we can all work on here together, but also so 
many things that are going right.
    It was with this spirit that I asked Senator Mike Rounds to 
join me in a rural economy working group, a bipartisan working 
group, that is really focused on lifting up what is working and 
figuring out what we can do to support it more. I wanted to 
mention that to my colleagues here today because I would 
welcome all of you participating in that conversation, as a way 
of moving forward the good news in rural communities and what 
we can do to support it more.
    With that spirit in mind, I am really grateful to have a 
chance to talk with you all today, and I want to start, Mr. 
Lammers, with you, the issue that Senator Ernst started on, 
which is the issue of rural housing. We know what a big 
challenge this is in rural areas. It becomes an economic 
constraint, when rural communities that are growing jobs do not 
have the housing that they need for the workers who are wanting 
to live in that community. It is particularly a challenge in 
Minnesota for affordable housing in rural areas.
    I want to hone in on the federally assisting--excuse me--
the federally assisted housing units that we know are not in 
great shape and are aging quickly. Many of this problem is just 
a significantly big problem in rural areas.
    I introduced a bipartisan amendment to the Agriculture 
Appropriations bill that the Senate recently passed, that would 
require the USDA to prioritize maintenance needs in rural 
housing units, and would also ask the USDA to strengthen 
enforcement against property owners who are failing to make the 
repairs that are necessary to those housing units.
    So, Mr. Lammers, could you--I know you understand the 
importance of preserving these rental housing properties in 
rural areas. Could you tell us about how this will be a focus 
of the Rural Housing Service, going forward?
    Mr. Lammers. Thank you for your question. Last year--and I, 
too, have, by traveling and seeing the people that we work with 
and the people that we help out in the communities, have 
learned a lot about the mission rather than what happens here 
in Washington, and it is inspiring to me to be able to be part 
of the mission that serves the rural communities, especially. 
We have got some great people throughout the country, and here 
in our offices in D.C., that are inspired to help.
    Last year, we provided funding to preserve 216 housing 
units in, I think it was for 7,678 families that were able to 
continue living in what I would call preserved housing.
    We are working on a restructure of the way we deliver 
services through multi-family, and our goal is to have more of 
a focus on pathways that deal with managing of risk and 
assessing how often we should inspect and how often we should 
enforce different properties--property owners. If a property is 
performing well financially, and management is onsite and is 
keeping the property up to date, we would probably look for 
less inspection if we have not had problems with it in the 
past.
    It is a risk-based approach that we plan to implement. 
Right now we are reviewing the portfolio to see what percentage 
of our properties are in more need versus less need, but it is 
a process that is underway.
    Senator Smith. So let me ask you. It is my understanding 
that it is difficult to manage this enforcement because the 
Rural Housing Service does not currently keep track of the 
total number of inspection violations by property. Is that 
correct, and why wouldn't the USDA require this information to 
be included on the inspection reports?
    Mr. Lammers. Well, thank you. I have been part of a--I 
visited a property in rural Colorado that had just received an 
inspection, and it was a couple that has owned a property for 
many years and they were quite welcome to what we had--what our 
inspectors had suggested. We do keep track. I think we need to 
do a better job, and the realignment that we are working on 
will allow us to do that, and to concentrate our resources 
where they are most needed.
    Senator Smith. Well, thank you. I look forward to 
continuing to work with you on that. Thank you.
    Chairman Roberts. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman. Mr. Rupe, you 
mentioned in your testimony, and although it is not a Farm Bill 
program, about the Broadband ReConnect Pilot Program 
applications, that they are now being awarded. I have several 
companies in Nebraska who have applied for that new pilot 
program over the summer. Can you give us some kind of status 
update on that new pilot program and describe how the 
processing of those applications and the award decisions have 
been progressing so far?
    Mr. Rupe. Yes, Senator. Thank you for the question. I was 
very proud of the ReConnect Program and we thank you for your 
support of that program. We believe it is vital to be able to 
address the broadband issues that we see.
    First of all, I share the belief with the Secretary that 
investments made through the broadband pilot program are going 
to be critical to providing health care, education, banking, 
and job opportunities and open, vital markets for our farmers 
and ranchers.
    I would like to emphasize that this is a pilot program, 
and, therefore, you know, we do not know all the right answers 
right out of the gate, and we took our time. We wanted to make 
sure that we delivered in a modern and efficient way. We opened 
that program for applications earlier this year, and we 
received 146 applications from 41 States throughout the U.S. 
for the total of $1.4 billion on the $600 million in 
appropriations from the first round of funding that we received 
from the appropriations bill.
    We have worked very hard to make sure we had a modern 
delivery and decisionmaking system in there. If you go to 
ReConnect.usda.gov you can see the current status as reflected 
in any application and be able to pull up a map and it will 
show where service is proposed in any one area. We also gave 
current providers the opportunity to be able to challenge any 
service area that was proposed for service, so that when we put 
boots on the ground and verified whether or not that area 
currently has service we knew that we were speaking to the 
right people in the right location to make the right decision.
    Having said that, we have started the award announcements 
for those, and we plan to have that fully completed by 
December, for the first round of funding. We have publicly 
announced some of them. We have many offers that are on the 
table for 27 projects so far, as of this morning, for a total 
of $289 million worth of those funds in 20 States.
    We are actively engaging in making our decisions and 
finding the right award opportunities and the right locations, 
and it changes on a daily basis, and we are working extremely 
hard to make that happen.
    Senator Fischer. Well, thank you. You know how important it 
is to be able to have broadband across this country. I like to 
say it is the No. 1 priority for infrastructure in the future 
if we are going to keep our rural areas vibrant, to make sure 
that governmental services are available, to keep people, young 
people there, because of the opportunities they will have with 
education, to keep older people there as they age and need to 
have possibly more medical care to make sure that that is 
available as well.
    There are a lot of really cool things happening when it 
comes to especially the Internet of Things and that 
connectivity that is out there, and to be able to make these 
advancements, it is extremely important that we keep all 
citizens in this country connected to the future and what is 
available in the future.
    Administrator Brand, in the 2018 Farm Bill we added some 
implementation requirements to the biofuel markets program. The 
USDA is required to establish an expedited approval process for 
products to be determined eligible for the procurement program 
and to receive a biobased product label.
    Can you provide an update on where those efforts in the 
agency are right now?
    Ms. Brand. Yes. Thank you very much for that question. We 
are very happy to have the biobased markets program within 
Rural Development. It is a natural fit with many of our 
stakeholders. We have already fully incorporated them within 
our programs and stakeholders. We have gone to meetings--the 
national office team has accompanied them on meetings. The 
program itself is up and running, fully functional within Rural 
Development, within Rural Business Cooperative Service.
    Likewise, the regulations, we are in the process of writing 
those and finishing up those rules, and will have them 
available early in 2020.
    Senator Fischer. Thank you so much. Thank you, Mr. 
Chairman.
    Chairman Roberts. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman. I want to thank the 
panel. I am sorry I was here a little late for your testimony. 
I want to start with the topic you have heard so much about, 
broadband, and I guess to emphasize a couple of things that are 
coming in sharper focus now than maybe even before.
    A number of years ago, after hearing a number of 
individuals in our State, public officials and others, asking 
about what we were going to do about rural broadband, and 
talking about the economic development impact, the business 
impact, the broader economic impact, one county commissioner 
finally made it clear to me. He said, ``Senator, kids cannot 
learn without broadband,'' that our schools, a big part of the 
problem was what was not happening in our schools. Over and 
over again I keep coming back to that.
    Whether you are thinking about this in terms of economic 
growth or job creation or in the connectivity that has to 
precede that, or whether you are thinking about it in very 
basic terms, when it comes to children learning in school or 
not being able to learn, this is a huge challenge. I know that 
USDA has been working on this. I know that we have had a number 
of efforts made by both parties, both houses, and now two 
administrations, to begin to tackle this problem.
    Unfortunately, with all the initiatives, all the programs, 
we are way behind. In my judgment, when it comes to rural 
broadband, we are failing. We are just not getting the job 
done, and we cannot allow that to persist.
    We know that when it comes to both small businesses and 
farmers, and sometimes they are one in the same, without 
access, their profit margins are being adversely impacted. 
Farmers without access report missing out on technology to help 
increase their business. They may have to drive hours to 
deliver financial information to their accountants.
    Rural residents are having trouble accessing information 
about government services. We do not talk about this very much. 
It is not just that the small farmer cannot access information 
sometimes about USDA, but cannot get information about Social 
Security, cannot get information about Medicare, cannot get 
information about filing their taxes, cannot get information 
about applying for jobs online. There is just a whole range of 
problems.
    I know that USDA is working with other agencies on this, 
and I appreciate the work that you are doing.
    There are others who come to us and say, ``We want to make 
sure we can maintain our tax exempt status while receiving 
broadband funding,'' and I know that Mr. Hayward, on another 
panel, will be concerned about ensuring that electric 
cooperatives are able to utilize these programs focused on 
broadband and not be disadvantaged.
    I guess the first question is by way of reiteration. I know 
you are repeating yourself because of this question, but give 
me, I guess, the most cogent update on where we are with regard 
to the rural broadband program, the ReConnect Program, and any 
other update you can provide.
    Mr. Rupe. Senator, thank you for the question, and I think 
that it is also important to recognize that within our electric 
infrastructure loan program we also have investments for smart 
grid, which includes fiber, and if we think back to when this 
organization was originally formed, back in the 1930's, it was 
the electric co-ops that were formed that helped start 
electrifying America, and the Secretary and I definitely see 
this as a modern-day version of that.
    Having said that, that is when I mentioned the non-
traditional approach. If we continue to do the same thing over 
and over again without changing, we should expect the same 
result. That is why I say we are working very hard to find non-
traditional approaches, while maintaining strong underwriting, 
good methodology to get the right information to the right 
location, to make the right decision.
    With that, it absolutely makes a difference. We are more 
than happy to pair up, in any program, to help find the right 
solution if it is within our authority to do so and it makes 
sense for our applicants to take that approach. We have tried 
to be very flexible, and that is how we designed the ReConnect 
Program, to ensure that if someone has the capacity and they 
have willing partners to come to the table to provide that 
service that is so desperately needed in rural America, that 
has not yet been addressed through the private sector alone, we 
are more than happy to engage and make that happen.
    We welcome the opportunity to do so through our program, so 
we are very happy and very pleased that you have been willing 
to support our programs to date.
    Senator Casey. I appreciate that. I just happen to 
represent a State which people think of as a State with big 
cities and a little bit of territory in between. We have got 67 
counties; 48 are rural. We hear about this issue a lot.
    I will, Mr. Chairman, submit a question for the record to 
Administrator Brand regarding the Healthy Food Financing 
Initiative, and I am out of time, but it is a great 
Pennsylvania model. I will submit that in writing, as well as 
others.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here to discuss the rural development title of the 
Farm Bill. The Farm Bill, for our State, as it is for so many 
other States is one of the most important pieces of legislation 
that we deal with here.
    First of all, I want to thank you for the job that you all 
are doing. I had the opportunity to visit a lot with Rural 
Development in Arkansas. They are doing a tremendous job, and I 
really appreciate the support that you are giving them. Give 
yourselves a big pat on the back in that regard. Sometimes we 
hear lots of negatives but we do not take time, again, when 
people are working hard, to try and help each other.
    I do not really have a question about broadband since it 
has been brought up so much. I do want to reaffirm its 
importance. You know, sadly, in Arkansas, and throughout much 
of rural America, you see young people sitting in their cars, 
doing their homework, leaching the broadband from the local 
schoolhouse. That is not an uncommon sight. I would say it 
happens even in Upstate New York, so that is something that I 
think we all are certainly united on.
    Let me ask you a question regarding the Rural Development 
Wastewater and Community Facility Programs, in the sense that 
in 2019, they are still required to utilize the American 
Community Survey, the 2006 through 2010 dataset, in determining 
the median household income of the project service areas for 
various loan and grant eligibility within the programs.
    It is my understanding that Rural Development has not 
obtained an updated State non-metropolitan median household 
income from the Census Bureau for each State that must be 
obtained in order to use with a more current American Community 
Survey five-year dataset.
    This is kind of in the weeds, but the question is, when 
will Rural Development begin using a more current dataset to 
determine the median household income of a project service 
area? The world has changed a lot since 2000 and 2010.
    Mr. Rupe. Senator, thank you for the question. First of 
all, I think it is important to understand why we do that, and 
I think that we need to address that first. As far as why we do 
that, that is to ensure that we are being fair and equitable in 
how we handle the grant component of our loan program, where we 
can match that up to where we are not giving undue advantage to 
someone who has a lot of deferred maintenance in their system 
and refuses to charge their customers fair and reasonable rates 
to have a sustainable and functional, healthy drinking water 
and waste disposal system. That is the reason that we do that.
    Second, we have to have equitable information, solid 
information, and the census is a way to do that. Because it is 
an every-ten-year census, it does create issues of challenges 
between what was and what is, because, as you said, a lot can 
change in the course of eight years, as we have seen.
    The good news is that we have a great economy and the 
economy is the best in my lifetime, and I think that is a good-
news story that is worth stating. Because of that, we have seen 
the ability of people to improve on their systems and have a 
healthier and livelier economy because of that.
    With that said, there is an opportunity for us to help 
improve in how we deliver that and make those decisions, and by 
having access to more current information would definitely be 
helpful. The ability to be able to improve on that, we are more 
than happy to take a look at and work on, and we can work with 
you as we move forward to help----
    Senator Boozman. We appreciate that, and we really would 
like to work with you. There are similar programs throughout 
government that depend on this same sort of data. Where you get 
in trouble is these out years, as you get so far out.
    Mr. Rupe. Yes, sir.
    Senator Boozman. Again, in a very changing time in rural 
America. Thank you, Mr. Chairman.
    Chairman Roberts. Let me ask a question of Mr. Lammers 
here, that I intended to ask before. My apologies to Senator 
Gillibrand. Nice to have you back. I will do this real quick.
    Mr. Lammers, this question is for you. One of the top 
priorities in the rural development title of the 2018 Farm Bill 
was to try to prioritize our community facility funding for the 
construction, or the improvements to addiction treatment 
facilities which address the problem, or the epidemic that we 
are experiencing with opioid addiction.
    In Kansas, we had a unified effort with law enforcement to 
close down a lot of meth labs. Today we find, in many States, 
that does not exist anymore, but still the product comes 
through, now straight from Mexico, probably from China. This is 
a much stronger situation with meth.
    We just had the district attorneys of Kansas in, and I 
asked them what their No. 1 question was. I did not expect 
this, but for the second year in a row they said meth, clogging 
up law enforcement, clogging up the courts, and obviously 
causing great pain to many families.
    My question is, what kind of demand has USDA seen for 
funding of these types of health facilities and how is the 
Department educating our communities about the resources 
available, if any, at the Department to help fight addiction?
    Mr. Lammers. Thank you for your question. I have seen 
first-hand, in some of my visits around the country, the issues 
that exist, specifically touring Kentucky and Tennessee. I 
toured a jail that was under construction, and the main reason 
for that jail was because of incarceration because of 
addiction. There is definitely demand.
    We have financed about 37 projects in 15 States that have 
contributed to either the treatment or prevention of substance 
abuse. Our staff has been out working, trying to make sure that 
people understand that under the Community Facilities Program, 
we are able to finance those treatment facilities. So thank 
you.
    Chairman Roberts. This is a problem that is not going to go 
away any time soon, but we really have to mount an intensive 
effort to be of help, and thank you for your work. Senator 
Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman. It is a 
delight to be back.
    Ms. Brand, I was proud to pass my bipartisan Rural Jobs and 
Investment Act into law as part of the 2018 Farm Bill 
reauthorization. This legislation made multiple reforms to the 
rural development title to reverse declining rates of rural 
entrepreneurship in recent years, and create quality jobs 
across rural America. These reforms included multiple 
improvements to USDA's Rural Business Investment Program to 
expand access to equity capital that is nearly nonexistent in 
rural areas. Rural entrepreneurs are in desperate need of this 
capital to start and grow businesses.
    The Farm Bill also included a new program that I proposed, 
the Rural Innovation for Stronger Economy, or RISE, grant 
program, which authorizes grants of $500,000 to $2 million 
each, to locally driven rural jobs accelerator partnerships, 
made up of entrepreneurs, local leaders, investors, and job 
training providers so they can work collaboratively on 
improving their local economy and positioning their region to 
be more competitive.
    Can you please provide a status update of implementation of 
the Rural Business Investment Program reforms and the newly 
created RISE grant program?
    Ms. Brand. Yes. Yes, ma'am. Thank you for those questions.
    First, the Rural Business Investment Program, we are in the 
process now of writing the rule and the changes needed, and 
some of those have been made through administrative notices, 
but the rest of them will be finished in early 2020.
    With regard to the RISE program, the grant program, we are 
excited to be able to look at that as an opportunity, as a 
rural jobs creator or accelerator partnership, and we are 
awaiting funding to be able to implement that program, however.
    Senator Gillibrand. Thank you. The Rural Business 
Investment Program is modeled after the SBA's Small Business 
Investment Company, SBIC, program, and I am aware of a 
memorandum of understanding signed by USDA and SBA to better 
coordinate the delivery of their programs to assist rural 
entrepreneurs. Improved coordination between SBIC and RBIP 
programs should be part of this MOU in order to mobilize more 
capital for rural businesses. Can you commit to working with 
the SBA on dedicated efforts to prioritize the certification of 
more SBIC funds as the Rural Business Investment Companies 
through the USDA and more RBICs as SBIC funds?
    Ms. Brand. Yes. Thank you for that question. Certainly we--
and we already have been. That MOU has been in existence for 
almost two years now, and we have already been working jointly 
with SBA on outreach and reaching out to investors across the 
country, as well as trying to streamline the application 
process to make it easier for them to be in one or both of the 
programs.
    Senator Gillibrand. Thank you. I recently introduced 
legislation, the Rebuild Rural America Act, which creates a 
rural regional block grant that awards dedicated annual long-
term funding to implement locally driven economic and community 
development strategies. Rural communities face complex 
challenges that demand comprehensive solutions and long-term 
planning, but the current Federal grant system is too narrow 
and inflexible to truly address their specific needs.
    Larger cities have benefited from this kind of investment 
for decades in the form of community development block grants. 
My bill would create a similar dedicated pool of funding 
provided through five-year, non-competitive, renewable block 
grants.
    How are your programs currently helping rural communities 
build greater capacity to advance local plans for community and 
economic and development, and do you see value in long-term, 
non-competitive block grant programs that complements the 
existing competitive grants and financing programs currently 
available through the USDA Rural Development?
    Ms. Brand. Thank you again for that question. We--one 
moment, please. Let me catch up with you on--so we are working 
with Rural Development State councils and also to deliver those 
programs, and right now we are in the process of working--
reviewing that and writing the rule, and we will be working on 
that throughout and the beginning of 2020.
    Senator Gillibrand. That is great. Thank you, Madam Chair--
Mr. Chairman, and Madam Ranking Member.
    Chairman Roberts. I appreciate that. It would appear now 
that, a big thank you to our first panel. Thank you for coming. 
I appreciate your testimony and insights. Very helpful to the 
Committee.
    I would like to welcome our second panel of witnesses 
before the Committee, and thank you again to the first panel.
    Mr. Rupe. Thank you, sir. Thank you, ma'am.
    [Pause.]
    Chairman Roberts. Is everybody settled? Thank you all for 
coming. We really appreciate it very much.
    Senator Hyde-Smith, you are right in the nick of time to 
introduce the next witness--the first witness.
    Senator Hyde-Smith. Thank you, Mr. Chairman, and thank you 
for convening this hearing to review the U.S. Department of 
Agriculture's implementation of the rural development and 
energy provisions in the 2018 Farm Bill.
    Farm bills provide us with an opportunity to go back and 
periodically address and look at an array of programs and 
issues of importance to rural America, and especially in places 
like Mississippi.
    The Senate Agriculture Committee has an equally important 
responsibility to provide oversight to ensure USDA 
implementation of the law is timely, consistent with 
congressional intent, and meets the needs of our constituents, 
but I certainly appreciate these outstanding witnesses being 
here today.
    I would like to give a warm welcome to Mr. Keith Hayward, 
here on the end, the CEO of North East Mississippi Electric 
Power Association, based in Oxford, Mississippi. During Mr. 
Hayward's 32 years of service, the North East Mississippi 
Electric Power Association has grown from providing electricity 
to 10,000 homes and businesses to providing power to 
approximately 27,000 today. I am proud that this association 
continues to be one of the fastest-growing electric power 
cooperatives in the entire country, doing an outstanding job.
    Again, Mr. Hayward, thank you for taking the time to come 
to D.C. and be with us today and to share your knowledge and 
insights and ways to improve the rural lines that we have here 
in this country.
    Mr. Hayward, there has been a tremendous amount of 
attention and resources directed toward rural broadband 
deployment in the 2018 Farm Bill and in recent appropriation 
bills. One program, in particular, is the ReConnect grant, and 
it is the loan program administrated by USDA Rural Development, 
and I understand your power association has shown a 
considerable amount of interest in participating in this 
program.
    Will you offer some insight as to how this program is 
helping North East Power Association meet the needs of the 
customers and bridge that digital divide that we so many times 
experience? What recommendations can you offer on how we could 
improve, to better meet the needs of the people of rural 
Mississippi and around the entire country?
    Mr. Hayward. First, thank you for that introduction and 
thank you for your dedication to the State of Mississippi. It 
is very well thought of.
    As far as the ReConnect program, we did apply for the 
grant-only program. There were some experiences with some 
difficulties and some rulemaking. In particular, in our area, 
we have one of the more vibrant areas of Mississippi around 
Oxford, but we have a great deal of unserved territory, which 
qualify for the grant application.
    One of the problems we had is we have the mapping system 
that has been discussed here earlier, that is really not very 
accurate but it is the best that we have. We are taking 
government data that has been provided through the FCC, that 
the USDA got, and they give us the territories that we can 
apply for.
    One of the stipulations in the grant program was the fact 
that it was a 100 percent that could not have any N1 service, 
and a 100 percent mark is very hard to reach. It is perfect. We 
actually set up a phone bank of 1,200--and called 1,200 of our 
members that were in the territories that we were given, to try 
to figure out if we had somebody out there that may be getting 
service that was not on the map or that we did not know. 
Because if there was just one challenge then the way the grant 
was written, that the whole grant would be disqualified.
    We were spending thousands of dollars to apply for this 
grant, and much like the loan programs, they were a 90/10 
percent. One of the problems we had was trying to make sure--
and we do not know to this day. We have not received word. We 
do not know to this day if some of the--if there were some 
people out there that maybe we did not know about or got 
service in between the time that we applied for the grant.
    The other issue that we had is we feel like that through 
some of the stimulus money there have been several systems that 
have demonstrated that they can put fiber in the electric space 
and own the fiber as part of the electric company. We feel like 
that the electric GFRs, at RUS are not being--they need to talk 
with the telecoms. I think we are getting a lot of the telecoms 
are writing some of the rules, and they need to understand our 
business, because we figured out a way to do it differently. If 
we are going to serve rural, unserved, sparsely populated 
areas, our structure is different than the telecoms. That has 
been demonstrated through some other utilities that are out 
there doing that, and we feel there needs to be a little bit 
more collaboration between the two different departments within 
the USDA.
    Those are the two main concerns. I had one more. If you 
will pardon me just a second.
    [Pause.]
    Mr. Hayward. Oh. I am sure we will talk about this later, 
as I get into some more testimony. The RUS ReConnect program 
was a 10/1 service minimum. FCC is a 25/3. You know, when I 
talk to my constituents, the first thing I ask them is, ``Can 
you give me a definition of broadband'' because we have changed 
the definition of broadband so many times, and by the time we 
write a new definition of broadband it seems like it is out of 
date.
    I do feel like if there is another program it needs to be 
at least 25/3. What we are looking at offering our customers is 
fiber to the home, which will offer up to a gigabit service, 
because we are building for the future. That is the way we do 
for the electric co-op, that is the way we have done for the 
past 85 years. We build something that is going to stand the 
test of time.
    As you talk to customers and we have rolled out these 
surveys and we find people that are trying to run small 
businesses on their homes, on their data plans, on their cell 
phones, or trying to do their homework--I am in a college town 
and we have several students, we have professors that are 
having to--they are sending out their information on video now 
and people taking classes at school. The speeds are getting 
exponentially faster and faster and the need for data is 
getting more and more out there.
    You know, much like Tennessee and Chattanooga, you know, 
they got gigabit service. I want my members to have gigabit 
service also, and that can only be done through fiber.
    Senator Hyde-Smith. Thank you very much.
    Chairman Roberts. At this point I think we will introduce 
the next witnesses.
    Senator Ernst was looking forward to introducing her next 
witness, Mr. Bryan Sievers. She is not here. Somebody conducted 
a study some years back and said that Senators are supposed to 
be two places at the same time over half the time. I think we 
are going to add three to that now.
    Anyway, we are happy to welcome Bryan. Bryan and his wife, 
Lisa, are the current owners and operators of Sievers Farm, a 
2,300-acre, 2,400-head beef cattle feedlot, and renewable 
energy facility, located in western Scott County, Iowa, which 
is near Stockton.
    The Sievers Farm boasts a 1-megawatt combined heat and 
power system fueled by methane produced from two anaerobic 
digesters, utilizing beef cattle manure, agriculture processing 
waste streams, cover crops, and other co-feeds. The electricity 
that is generated is sold to their local service provider.
    Bryan is a 1982 graduate of Iowa State University, home of 
the Cyclones, with a degree in agriculture business. Bryan, 
Kansas State will play Texas. After we play Texas we come up 
there to play you. Just take it easy on us, will you?
    Leader McConnell has already introduced Mr. Michael 
Stanley.
    And for the last witness I turn to our distinguished 
Ranking Member, Senator Stabenow, for her introduction.
    Senator Stabenow. Thank you, Mr. Chairman. Last but not 
least, I am so pleased to have Dr. Jeff Dwyer with us at the 
hearing. He joins us at the Director of Michigan State 
University Extension and the Senior Associate Dean of Outreach 
and Engagement of the MSU College of Agriculture and Natural 
Resources.
    At MSU Extension, Dr. Dwyer leads 600 faculty and staff 
with the goal of improving quality of life in rural Michigan. 
He has worked to expand access to health care in Michigan, 
through addressing the opioid epidemic, drinking water issues, 
farmer stress, and mental health.
    Before this role, he served as a Senior Associate Dean in 
MSU's College of Human Medicine.
    Welcome, Dr. Dwyer. We are so pleased you could join us.
    Chairman Roberts. Mr. Hayward.

STATEMENT OF KEITH HAYWARD, GENERAL MANAGER AND CEO, NORTH EAST 
  MISSISSIPPI ELECTRIC POWER ASSOCIATION, OXFORD, MISSISSIPPI

    Mr. Hayward. Thank you, Chairman Roberts, Ranking Member 
Stabenow, and members of the Committee, and thank you once 
again for the introduction. Congratulations on the recent 
passage of the new farm bill, and thank you for the opportunity 
to testify on its implementation.
    The farm bill is essential to electric cooperatives because 
it contains tools we use to keep the lights on in rural 
America, deploy broadband, generate and distribute electricity 
of renewable sources, modernize the grid, and promote economic 
development in the communities we serve.
    For decades, the Rural Utility Service Electric Program has 
been our foundation, providing low-cost financing to co-ops for 
installing and maintaining the grid. It has been the most 
important rural development tool in this country's history. In 
addition, about half of all electric co-ops also borrow from 
private cooperative banks like CFC and CoBank. The Farm Bill 
reauthorized and maintained these important programs which 
gives us healthy options for financing the work we do.
    In addition to our electrification work, cooperatives play 
a vital economic development role in the communities we serve. 
Since 2009, Mississippi co-ops have conducted around $25 
million in rural economic development loan and grant, or REDLG 
projects. We believe the REDLG program remains a viable tool in 
offsetting population flight and job loss in Mississippi and 
around the country. The recent Farm Bill includes needed 
changes to the REDLG program to provide secure funding into the 
future.
    In the 21st century, there is perhaps no more important 
rural development challenge than providing broadband internet. 
As this Committee knows, deploying broadband infrastructure in 
sparsely populated areas is very costly, so much so most of our 
members are lagging their urban counterparts.
    My co-op recently approved a plan to bridge that digital 
divide by offering fiber-to-the-home broadband with up to 
gigabit speeds to 100 percent of our members. Our goal is to 
begin offering service as soon as next year.
    We are enthusiastic about the farm bill's inclusion of the 
new loan grant program for rural broadband, building on the 
USDA ReConnect pilot, of which we are an applicant. We have 
experienced technical and rural-related challenges throughout 
the application process, which I hope to talk more about. We 
are committed to working with Congress and USDA to provide 
feedback on suggested amendments.
    Continued government funding to reduce the up-front capital 
investment will remain essential to the expansion of broadband 
throughout rural America.
    Just as broadband is key to the 21st century economic 
development, communication infrastructure is essential to 
operating a modern electric grid. The main challenge of 
distribution co-ops is to meet the electricity demands of 
customers as efficiently as possible so that every time you 
flip a switch the light comes on. Broadband in the grid lets us 
know a lot more, a lot faster about what is going on, on our 
system. If you want fewer outages, more renewables, less 
expensive and better security from cyber attacks, broadband in 
the grid is key.
    As you continue to think about development of retail 
broadband, do not forget about this separate smart grid 
component. They look alike but they work differently, for 
different purposes.
    The last thing I would like to mention is an issue not 
directly under your jurisdiction but will affect programs you 
oversee. In short, an unintended consequence of the 2017 tax 
law threatens our tax-exempt status if we accept FEMA 
reimbursements after a natural disaster, a broadband grant, or 
other Federal assistance. This is an existential threat for 
electric co-ops. A special thanks to Senator Smith who is 
leading the effort to fix this problem, and thanks to many of 
you for supporting her bill.
    Thank you for a successful reauthorization of the farm 
bill. We look forward to continuing to work with you, and I 
welcome your questions. Thank you.

    [The prepared statement of Mr. Hayward can be found on page 
48 in the appendix.]

    Chairman Roberts. Thank you, Mr. Hayward. Mr. Sievers.

 STATEMENT OF BRYAN SIEVERS, MANAGER, AGRIRENEW, GLENORA FEED 
         YARD, AND SIEVERS FAMILY FARMS, STOCKTON, IOWA

    Mr. Sievers. Thank you, Chairman Roberts, Ranking Member 
Stabenow, and members of the Committee, and thank you for 
asking me to testify at today's hearing focusing on the 
implementation of the energy title of the 2018 Farm Bill.
    By way of background, my wife, Lisa, and I own and operate 
Sievers Family Farms near Stockton, Iowa. We are fifth-
generation Iowa farmers that run a 2,400-head beef cattle 
feedlot. We produce corn, soybeans, and hay on approximately 
2,200 acres. Finally, our farm operates two complete-mix 
anaerobic digesters where we produce biogas that is used to 
generate renewable electricity, which is sold to Alliant 
Energy, our local service provider. We also produce reclaimed 
heat, which is used to heat our digesters and other buildings 
on our farm.
    For generations we have focused on stewardship and 
conservation of our natural resources in our operations, and 
have implemented numerous water quality and soil health 
practices over the years, including grassed waterways, field 
borders, buffer strips, terraces, contour-farming, no-till and 
strip-till, grid soil sampling, and cover crops, much of which 
have been supported by the programs that have been implemented 
through the USDA and this Committee, as well as Congress.
    I also serve on the board of the American Biogas Council, 
which is the only national trade association representing the 
entire biogas industry in the U.S. We represent over 200 
companies in all parts of the biogas supply chain who are 
dedicated to maximizing the production and use of biogas from 
organic waste. The ABC is, in turn, a member of the AgEnergy 
Coalition, a group of organizations committed to a strong, 
bipartisan energy title. The ABC and the AgEnergy Coalition 
believe that strengthening rural America and on-farm economies 
are two key ways to advance the deployment of renewable energy 
and the production of biofuels and renewable chemicals.
    I come before you today to urge the Committee to continue 
closely overseeing the implementation of the 2018 Farm Bill. 
This important piece of legislation contains many programs 
intended to help farmers diversify their income streams. In the 
midst of trade wars, horrible planting weather and harvest 
weather, and the Administration's actions to undermine the 
renewable fuel standard, the farm bill energy title programs 
continue to provide value to farmers, agricultural producers, 
and small rural businesses.
    American farmers and rural communities are hurting. While 
U.S. farms' net income is forecast to actually rise in 2019, 
these challenges are squeezing farmers between decreasing 
commodity prices caused by the demand destruction as a result 
of the ongoing trade war with China and the gutting of the RFS, 
caused by issuing more small refinery exemptions for the RFS 
than ever before. In both cases, the Trump administration's 
action have dramatically decreased the value of several of the 
products we and our fellow farmers produce, and that 
dramatically reduces the revenue we need to keep operating our 
farms.
    Members of Congress have labored over numerous farm bills 
to craft policies that minimize the fluctuations caused by 
commodity price volatility. As members of this Committee 
continue to implement the 2018 Farm Bill, we ask members to 
keep in mind the value of our 21st century biobased economy, 
which can help offset some of the earlier-discussed headwinds 
which are affecting our farms, families, and the ag economy.
    Chief among these policies is the farm bill energy title, 
or title IX, which creates high-value jobs and new income 
streams for American farmers, accelerates the commercialization 
of new technologies and products derived from agriculture, and 
supports construction of biogas systems and biorefinery 
manufacturing facilities in rural communities.
    Conventional and advanced biofuels, including renewable 
natural gas which is derived form biogas, chemicals, and 
biobased products made with biotechnology can drive the demand 
for crops, including cover crops, and perennial crops, as well 
as crop residuals. This can boost on-farm revenue.
    As a stakeholder, the ABC was very grateful to participate 
in the process of helping to craft the 2018 Farm Bill. Overall, 
we are very thankful that the bill contained an energy title 
with some mandatory funding. However, in total, mandatory 
funding has decreased significantly from $694 million in 2014, 
to $375 million in 2018. That is a decrease of 46 percent.
    Alternatively, the total discretionary authorization 
provided by the 2018 Farm Bill, which was $1.7 million, is 
approximately 13 percent more than what was authorized in the 
2014 Farm Bill for the energy programs. While the latter 
increase sounds positive, most energy title programs did not 
receive discretionary appropriations under previous 
appropriations bills, something that should change. We urge the 
Committee to make up for this decrease in mandatory funding by 
strongly supporting the full annual funding of the 
discretionary amount authorized.
    We are especially pleased to see the Committee recognize 
the role that anaerobic digesters can play in the on-farm 
economy by establishing section 9111, the Carbon Utilization 
and Biogas Education Program. While anaerobic digestion 
technology is mature, greater deployment throughout the rural 
economy has been slowed due to the lack of awareness and farmer 
education about how they work and their benefits.
    Digesters are one of the greatest methods available to trap 
methane-emitting waste products, such as manure and crop 
residues, and convert it to renewable energy, nutrient-rich 
soil amendments, fertilizers, renewable natural gas, and feed 
stocks for renewable chemicals and bioplastics. Providing 
greater education and outreach to farmers and agriculture 
producers could greatly increase the deployment of digesters as 
well as the utilization of the farm bill energy title programs 
that support digesters.
    We urge the Committee to support fully funding the $2 
million authorized annually for this program. While we 
celebrate the establishment of this program and are hopeful to 
see it funded, we remain very disappointed that priorities 
highlighted by the Committees in the conference report, such as 
the Biogas Opportunities Roadmap Task Force, have not been 
acted upon by the USDA. This provision states that no later 
than 180 days after the date of enactment of the Agriculture 
Improvement Act of 2018, the USDA Secretary, in coordination 
with the Secretary of Energy and the EPA Administrator, will 
establish an Interagency Biogas Opportunities Task Force to 
coordinate policies, programs, and research to accelerate 
biogas research and investment and cost-effective biogas 
systems. This task force can help the industry provide 
resources for potential new on-farm digester projects to ensure 
that they are designed, developed, engineered, constructed, and 
operated so they can succeed. The lack of forward progress on--
--
    Chairman Roberts. Mr. Sievers, if you could wrap this up 
here it would be helpful.
    Mr. Sievers. All right. I will do that--can be very helpful 
as we move forward with the implementation of the Farm Bill.
    I will place the remainder of my testimony, which speaks 
more in depth about the 2018 Farm Bill energy program, on the 
record, and I am happy to answer any questions you might have.

    [The prepared statement of Mr. Sievers can be found on page 
54 in the appendix.]

    Chairman Roberts. Thank you, sir. Thank you for your 
testimony. Mr. Stanley.

   STATEMENT OF MICHAEL STANLEY, CEO, GRACE HEALTH, CORBIN, 
                            KENTUCKY

    Mr. Stanley. Senator Roberts, thank you for your invitation 
to testify at this hearing, and also I am humbled by Senator 
McConnell's earlier remarks.
    As CEO of Grace Health, I want to share my appreciation for 
the USDA Distance Learning and Telemedicine grant awards. We 
were awarded, in 2011, 2016, and most recently the 2018 
Telehealth Equipment Funding for $650,000, that includes 
$154,000 in matching funds. We were able to add an additional 
nine school-based health sites, seven clinics, and six nursing 
home sites.
    Grace Community Health Center, doing business as Grace 
Health, is a federally Qualified Health Center with primary 
care clinics serving Southeastern Appalachian Kentucky. Grace 
Health's priority is to serve the most vulnerable populations, 
including children, older adults, pregnant women, and people 
with low income. We accept Medicaid, Medicare, and private 
insurance but also provide services on a sliding fee scale to 
those who are uninsured or under insured.
    For Grace Health's USDA DLT project, the service area is 
located in southeastern Kentucky, near Virginia in the east, 
and bordering Tennessee in the south, and includes Bell, Clay, 
Knox, Leslie, Owsley, and Whitley counties. All of our service 
area counties have been designated as part of the federally 
designated eastern Kentucky Promise Zone, designed to encourage 
economic and educational development in one of the Nation's 
most impoverished areas.
    The counties are also designated as USDA StrikeForce Zone. 
The service area is located in the Eastern Coal Field region of 
the State and is comprised of rugged terrain composed of 
soaring mountains and verdant valleys.
    Grace Health sees telemedicine as an opportunity to improve 
the work environment for our health care providers and thus 
assist in provider retention. Innovative strategies such as 
telemedicine provide access to resources and support for both 
the patient and the provider, giving the provider a more 
realistic chance of ``making a difference'' that is not always 
possible when these resources are not accessible.
    Grace Health has identified four needs to be addressed 
through telemedicine: (1) access to health care providers and 
services; (2) transportation; (3) behavioral health treatment, 
including mental health and substance abuse treatment; and (4) 
patient engagement.
    To meet these needs, Grace Health has expanded telemedicine 
to 33 sites, including six primary care clinics, one women's 
health clinic, 19 school-based health centers, seven nursing 
homes, and one hospital. Services include primary care, 
consultations, behavioral health, and patient engagement. With 
telemedicine, rather than traveling to different clinics for 
different services, patients are able to access most of the 
services that they require at a clinic in their own community.
    Using telemedicine, Grace Health's mental health providers 
have increased the number of patients served. Through 
telemedicine, our behavioral health providers have access to 
all of our primary care clinics as well as all of our school-
based health centers. This increases the efficiency of our 
providers and greatly enhances services. Grace Health has 
improved patient engagement by increasing access to care, 
providing supportive services, and providing warm handoffs 
through telemedicine.
    Access is the most basic form of patient engagement. 
Telemedicine helps us to increase our access points for 
services. When it is easier to access care, patients are more 
likely to receive the services that they need to manage their 
health.
    As of July 1, 2019, Kentucky's new telehealth rules for 
Medicaid and commercial health help sustain telehealth programs 
through reimbursement of telehealth services. Kentucky is now a 
telehealth parity State. If a clinical encounter is 
reimbursable when conducted in a traditional in-person visit, 
that same encounter will be reimbursable when conducted via 
telehealth technology. This includes all services, providers, 
and locations, and the value of a telehealth encounter is 
equivalent to a traditional in-person encounter, unless the 
payer and provider have negotiated a reduced payment rate.
    In my personal opinion, telehealth is part of the answer to 
our primary care physician shortage in the rural underdeveloped 
areas of our country. I am grateful for the opportunity to 
partner with the USDA DLT program, and I am committed to the 
success of this program that will improve the health care 
outcomes of your constituents that are our patients.

    [The prepared statement of Mr. Stanley can be found on page 
66 in the appendix.]

    Chairman Roberts. Thank you, Mr. Stanley. Dr. Dwyer.

 STATEMENT OF JEFF DWYER, Ph.D., DIRECTOR, MSU EXTENSION, EAST 
                       LANSING, MICHIGAN

    Dr. Dwyer. Thank you, Senator Stabenow, for your kind 
introduction. Chairman Roberts, Ranking Member Stabenow, and 
distinguished members of the Committee, thank you for this 
opportunity to testify about the importance of strengthening 
health services in rural America.
    In addition to my roles at Michigan State University, I 
have the privilege of living in Alger County, a community of 
less than 10,000, on the shores of Lake Superior, and the 
gateway to the Pictured Rocks National Lakeshore. In Alger 
County, as in other rural areas, one in four residents are 65 
or older. We have significant concerns about suicide at all 
ages, and there are ongoing challenges with substance abuse and 
retaining jobs with a livable wage.
    Thanks to your efforts, my community will benefit from the 
distance learning and telemedicine program authorized in the 
2018 Farm Bill. Through that grant funding, the purchase of new 
3D mammography equipment will improve cancer detection by 40 
percent over the current 2D technology for my neighbors.
    This summer, I spent 15 weeks on the road visiting staff 
and stakeholders in all 83 Michigan counties. I saw the ongoing 
challenges and risks that farmers take to feed the world. One 
farmer told me, ``I will be putting half a million dollars into 
the ground when weather permits, and I have no idea what is 
going to happen.''
    This is why the Cooperative Extension System needs to build 
on our 100-year reputation of serving rural audiences through 
agriculture education programs and integrate it with 
programming emphasizing behavioral health and chronic health 
conditions.
    After observing an uptick in attempted and completed 
suicides in rural areas three years ago in Michigan, 
specifically among farmers and farm workers, we changed our 
approach. We have more than 600 faculty and staff members, most 
of whom have completed Mental Health First Aid training. Lives 
have been saved as a result. We developed four programs 
designed to help farmers and those who work in agriculture 
learn to identify the warning signs of stress, approach people 
suffering, listen empathetically, and find resources.
    Our experience in farm stress management and community 
behavioral health models the emerging role that Cooperative 
Extension needs to play in health care today. The farm bill's 
emphasis on telemedicine and greater access to reliable 
broadband will help provide increased opportunity at the nexus 
of direct clinical services and community-based health 
education in rural communities.
    We need to do this in collaboration with physicians, 
nurses, and other health care professionals. Yet recruiting and 
retaining health professionals means ensuring that rural 
communities are places where these providers want to live, 
work, and raise their families.
    Finally, research on the social determinants of health 
affirms that social and economic conditions contribute 
significantly to health outcomes and that rural residents are 
often disadvantaged on these dimensions. Adequate incomes, 
jobs, affordable housing, quality education, and other factors 
directly impact health at the individual and population levels.
    Two years ago, this Committee held a hearing in Michigan as 
you prepared the 2018 Farm Bill. As producers of more than 300 
commodities, Michigan farmers' voices are critical in any 
discussion about agriculture and the health of our communities. 
I appreciate the time you took to listen and for the 
opportunity to continue the discussion today.
    At Michigan State University and MSU Extension, we are 
doing what we can to support rural residents. By working 
together with this Committee and other partners on the Federal, 
State, and local levels, I believe we can find more ways to 
provide the services people need.
    Thank you again for your time and the opportunity to 
address the Committee. I look forward to answering your 
questions.

    [The prepared statement of Dr. Dwyer can be found on page 
81 in the appendix.]

    Chairman Roberts. We thank the doctor. Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman, and thank you to 
all of you for coming and for your testimony today. I 
specifically wanted to ask Dr. Dwyer and Mr. Stanley more in 
terms of health care, particularly behavioral health. We know 
that many challenges in health care--keeping our rural 
hospitals open, getting providers--are even more difficult for 
behavioral health, mental health, addiction services in rural 
communities.
    In 2016, the CDC reported that the suicide rate for male 
farmers had doubled since 2012. Last week, data from the U.S. 
courts revealed that farm bankruptcies are up 24 percent from 
last year alone, an incredible amount of stress.
    Farmers need tools, as you have talked about, to manage 
stress in the face of market uncertainty. We worked very hard 
to get a five-year farm bill to create some certainty for our 
farmers and rural communities, but we know right now that they 
are challenged on every front.
    I also think that it is very important that when we talk 
about health care we are talking about health care above the 
neck as well as below the neck. This is something that I care 
very deeply about. As you mentioned, expanded telemedicine 
grants, farm stress assistance, and expanded support for 
community facilities to address opioid addiction and mental 
health services are important to address these issues.
    Dr. Dwyer and Mr. Stanley, specifically--anyone else is 
also welcome to respond-- could you provide a little bit more 
context of what we should be doing to improve mental health and 
addiction services to rural families and farmers? Dr. Dwyer.
    Dr. Dwyer. Thank you, Senator Stabenow, for the question, 
and I would just add to the data you shared that farmers and 
farm workers have the highest death rates due to stress-related 
conditions such as heart disease, hypertension, ulcers, and 
nervous disorders. We need to pay attention to the whole 
person, and we completely agree with that.
    The additional enhanced support in the farm bill through 
telemedicine and broadband allows us to have the potential to 
provide more mental health care online. The research shows that 
for most people online health care is a viable and effective 
alternative to face-to-face therapy, and you have provided the 
opportunity for us to provide people with greater access in 
that regard.
    We can link that to the farm stress assistance, and that is 
why we feel strongly at Michigan State University that our next 
step in the domain of farm stress is to train all mental health 
providers to understand the unique challenges of farmers, farm 
families, and rural communities.
    If you are from an urban area and you do not understand the 
challenges of farm succession, and the difficulties that 
families face in that domain, you need to know that in order to 
be able to provide effective care.
    The other thing I would say, Senator, is that you have done 
a great service by including these programs in the farm bill. 
One of the things we find in mental health care and stress-
related disorders is that we do not talk about them enough. By 
this Committee, and the full Senate, in all of the positions 
that you hold, acknowledging that farm stress, that mental 
health, that depression, that opioid misuse, all of those 
things are not only important but something that is important 
enough for us all to invest in. That level of awareness is very 
important, and we appreciate it a great deal.
    Senator Stabenow. Thank you. Mr. Stanley?
    Mr. Stanley. Senator Stabenow, thank you for the question, 
and most of all thank you for your support of community health 
centers.
    Senator Stabenow. Yes.
    Mr. Stanley. Telemedicine allows our behavioral health 
providers to provide services to rural patients, with opiate 
and other addictions in our more remote clinics. It enables 
providers to reduce windshield time, driving to clinics where 
only a few patients would be seen on a given day, allowing 
behavioral health to see more patients via the telehealth 
modality.
    As you may be aware, many of our small rural communities 
have been devastated by the opiate addiction, and availability 
of behavioral health support is critical in allowing our 
patients to learn the coping skills necessary for a successful 
transition to sober living.
    Our behavioral health providers also support family members 
during recovery, as children, parents, and family members 
struggle with their loved ones who are caught up in addiction. 
Vulnerable children are especially impacted, as they must deal 
with feelings of resentment toward their family members, while 
the impact of the addiction leads to further trauma for the 
child, setting up a potential cycle of substance abuse passed 
down through the family, maintained by repeated victimization 
and withdrawal from others due to feelings of shame.
    Breaking this cycle requires intensive therapeutic support, 
often in conjunction with medication-assisted treatment by our 
medical colleagues. The ability to provide integrated treatment 
through collaboration is a critical component of the treatment 
process, as it allows for consistent provider messaging with a 
focus on improving outcomes for the challenging population due 
rates of comorbid psychiatric and medical disorders.
    Too often individuals with substance use disorders are 
isolated in outpatient and residential treatment centers which 
relies heavily on single elements of care, such as solely 
medical treatment or counseling or housing support. Barriers to 
treatment are further encountered in rural communities, when 
providers and access to integrated treatment modalities are 
scant. Integrated treatment allows providers to work together 
for patients in chronic pain, teaching self-management skills 
to a population at risk for developing addiction.
    Another risk population, that of pregnant mothers abusing 
drugs, can benefit from a coordinated care program that 
increases the chance of an infant remaining with its parents 
after delivery. When patients return home to their communities, 
therapeutic support becomes a necessity for parents, dealing 
with the challenge of raising a child while engaged in 
treatment for substance use disorder.
    These types of special populations are almost a commonality 
in our rural communities, and we need all the resources 
available, including telehealth capacity, to treat populations 
that are especially vulnerable to substance use disorders. 
Therefore, telehealth allows our behavioral health team to 
maximize their impact and transcend barriers to care. Thank 
you.
    Senator Stabenow. Thank you very much, and I know my time 
is up, and, by the way, Mr. Sievers, I want to followup with 
you about our digesters and so on, because I am very interested 
in how we can support efforts to expand even more on what you 
are doing. I did want Mr. Stanley just to indicate that we, 
Senator Roy Blunt and I, are working on an effort you may be 
aware of on behavioral health centers, to comprehensively be 
able to do what you are talking about between health centers 
and behavioral health in the community, and getting people out 
of jails and the emergency room to actually receive treatment. 
We have some real opportunities to move forward on that and I 
would love to work with you.
    Mr. Stanley. Thank you.
    Chairman Roberts. Senator Braun.
    Senator Braun. Thank you, Mr. Chairman. For Mr. Hayward, it 
looks like you are ahead of the curve on doing broadband in 
your area. How many counties does your--is your coverage?
    Mr. Hayward. We serve parts of four counties in north 
Mississippi.
    Senator Braun. Okay. In Indiana we have 92 counties, about 
two-thirds of them rural, and probably most RECs are either a 
county or two. Starting to cascade through the process of 
providing rural broadband.
    You will actually start service here next year, it sounds 
like. When will you plan to be completed?
    Mr. Hayward. Our project is about a 40-month buildout, is 
what we are planning, so we are planning on having it built out 
hopefully within four years, at least.
    Senator Braun. That will give access to every member that 
has currently got electricity?
    Mr. Hayward. Yes, sir.
    Senator Braun. That is impressive.
    Mr. Hayward. Our goal is to--our plan is to be able to 
provide it to every member. Our State law requires it before we 
can even get into the broadband business that we have to have a 
plan to provide----
    Senator Braun. Are your other counterparts in Mississippi 
proceeding at the same pace?
    Mr. Hayward. We have--our law just passed in January. We 
were not able to get into the broadband business from our 
enabling act, and we passed new legislation, and once our--I do 
have to have a vote of our change of our articles of 
incorporation, which will take place in December. We have eight 
co-ops already that are----
    Senator Braun. That is impressive. You would be a model for 
many other States then.
    We are running short on time. Next question for Mr. 
Sievers. I noticed you said that, when you talked about the 
farm economy, I think we are going through one of the toughest 
stretches. I am involved in farming to the extent I can be in, 
with the time I have available, forestry and row crops.
    You mentioned tariffs and waivers. What do you think of the 
underlying issues that have created chronic oversupply, you 
know, where acres are opening up across the world that we have 
never seen before, where Asia, Africa, along with South 
America? You seem to focus on tariffs and waivers. My opinion 
is it goes much more deeply. How do you think we get through 
chronically low prices and high input costs to keep the farm 
economy alive in the long run?
    Mr. Sievers. Thank you for the question, Senator. I really 
believe it is in the area of livestock production. I think the 
demand that can come as a result of increased livestock 
production will be helpful for the supply burdens that we are 
faced with, especially in corn and soybeans, which then leads, 
obviously, into how do you deal with that, and obviously trade 
is one of those things that will help.
    Certainly in the beef industry, you know, we would hope and 
anticipate seeing improved market opportunities, certainly with 
Japan and the trade deal that has just been completed there. 
The USMCA will obviously help that as well, so passage of that 
by Congress would be instrumental.
    I think the demand side of that equation will help pull the 
livestock production and the livestock sector forward and 
improve the demand for a lot of our commodities that are 
oversupplied.
    Senator Braun. I think you are right. Where farms had kind 
of a focus on row crops only over the last 20 years, I think 
that might tip back the other way, because livestock and 
poultry are exportable in a way that I think most of the world 
now is aiming to be self-sufficient on food and feed for 
themselves.
    Your digesters that you put in on your place, was the--
could you have done one and reached an economy of scale that 
would have been worthwhile? You have got two digesters, 
correct?
    Mr. Sievers. We have two anaerobic digester tanks. They 
actually operate in parallel, so it really just allows us to 
process the volume of manure, which is roughly half of the 
waste streams we process. It also provides an opportunity for a 
number of agriculture processors in the region to send us their 
waste streams. We receive waste streams from the poultry 
industry, turkey plants, chick hatcheries, biodiesel plants----
    Senator Braun. Within a radius of your location?
    Mr. Sievers. Actually, we go as far as 200 miles away. ADM 
facility in Decatur, Illinois, sends us waste stream.
    Senator Braun. What is your cost per kilowatt when you do 
generate electricity back into the grid, and is it competitive?
    Mr. Sievers. Well, I will give you an example. Right now we 
sell our electricity to our local service provider for 4.8 
cents a kilowatt hour, and I would say that we are at breakeven 
right now. That is why the things that we have looked at with 
renewable fuel standard--electricity producers who operate 
anaerobic digesters are currently not eligible for the 
renewable fuel standard and the RINs that are associated with, 
for example, D3 RINs that go with cellulosic fuels that 
transportation and liquid fuel producers can get, for example, 
renewable natural gas.
    That is one of the changes we would like to see EPA finally 
implement. There is a pathway there. They just never accepted 
or adopted any of the applications that have been submitted for 
the RINs pathway. That would really help us achieve maybe a 
little improved level of profitability as well as the overall 
implementation of the small refinery exemption.
    Senator Braun. My time is up. I would love to, at a 
different time, learn more about what you are doing there.
    Mr. Sievers. Sure.
    Senator Braun. Thank you very much.
    Chairman Roberts. Thank you, Senator Braun. You touched on 
a very important topic.
    Coop, you are up.
    Senator Thune. Thank you, Mr. Chairman, and thanks for 
having this hearing on farm bill implementation. I think it is 
really important that we do the important work this committee 
needs to do to ensure that these programs are implemented in 
the way that Congress intended. I am especially pleased that 
the 2018 Farm Bill maintains USDA energy and rural development 
programs which continue to improve efficiency, energy 
efficiency, infrastructure, housing, and economic development 
in rural communities across my State of South Dakota.
    Mr. Sievers, you mentioned the EPA's recent unprecedented 
issuance of small refinery waivers, which have drastically 
undermined the integrity of the renewable fuel standard and the 
President's commitment to rural America. I have heard from a 
lot of producers in South Dakota who share your concern, and I 
continue to urge the Administration to remedy the harm that has 
been caused by these waivers.
    Could you just briefly describe the impact of these waivers 
on farm country?
    Mr. Sievers. Well, in our particular industry, the biogas 
that is produced, if it is converted into renewable natural gas 
or pipeline-quality gas, it becomes eligible for either D3 or 
D5 RINs, advanced or cellulosic RINs, under the renewable fuel 
standard. As a result of the decreased SREs, utilization of the 
SREs, we have seen the value of those RINs plummet. We have 
seen them bounce back somewhat. I think we are now trading 
around 88 cents for a D3 RIN, which is helpful.
    In our situation, we are contemplating going from generated 
electricity from our biogas to a renewable natural gas 
facility. That represents a significant investment for us, 
several million dollars. If we do participate or move forward 
with that project we are going to have to rely on RINs as a 
portion of our revenue stream to help support that investment. 
Right now, at 88 cents a RIN, I am not sure that the value is 
high enough for us to be able to move forward with that.
    Senator Thune. Okay. Well, I hope that the EPA, as they 
work on this new rulemaking, adheres to the commitments the 
Administration has made about ensuring that the RFS 15 billion 
gallon number is a real number and that these small refinery 
exemptions do not continue to erode the very positive impact 
that the biofuels industry has had, not only on the Midwest, in 
the farm economy, but I would also argue on the national 
economy and our, you know, the environmental quality issues 
that we are all trying to hit these days. It has just been, I 
think, a win-win, and we need to keep it going in the right 
direction, and these exemptions have really undermined, I 
think, the intent and the effectiveness of the renewable fuel 
standard.
    Dr. Dwyer, I appreciate the work that Michigan State 
University Extension is doing to address increasing suicide 
rates in rural areas, especially among farmers. This is an 
issue of great concern to members of this Committee, and I 
would like to note that South Dakota State University Extension 
has similar ongoing efforts.
    Could you briefly describe Michigan State University 
Extension's work to address this issue, and also perhaps 
describe the agreements that you all have in place with the 
Farm Bureau, Farmers Union, and Farm Credit Council, to make 
sure that the farm stress education materials reach the 
producers who need it?
    Mr. Dwyer. Yes, and thank you for the question. We enjoy 
working with our South Dakota colleagues a great deal.
    The specific programming we have put together initially 
focused on a program called Weathering the Storm, directly for 
farmers and farm families. This past January, we had 99 of our 
extension colleagues from across the country, representing 19 
different States, who were trained in that program, and now 
that programming is being provided throughout the country.
    In addition, we have a parallel program for those who work 
in agriculture called Communicating With Farmers in Distress. 
The challenges being faced by farmers and farm workers 
certainly impact farmers and farm works, but they also impact 
everyone that works around them, and those people are also in a 
position to know about the challenges and know about changes 
that people might be experiencing.
    What we have been able to do at this point is develop 
online and face-to-face programs that we are taking out 
nationally, working with American Farm Bureau Federation, 
working with FSA, and all of those sorts of things. It really 
builds on our belief that the Cooperative Extension network is 
something we need to use differently and more expansively as we 
face these challenges, because through capacity funds and other 
means, you have provided assets that are tremendous--Statewide 
networks, people embedded in communities, and a 100-year 
history of doing work that matters to communities. We think we 
need to broaden that out through some of this mental health and 
farm stress work.
    Senator Thune. Good. Well, keep it up.
    Mr. Dwyer. Thank you.
    Senator Thune. Mr. Chairman, can I ask one more question?
    Chairman Roberts. Certainly.
    Senator Thune. Are you ready to gavel this out? It is 
almost high noon. Not quite.
    Mr. Stanley, in your testimony you talked about distance 
learning and telemedicine, and obviously that is something 
that, in South Dakota, we have long embraced. We see great 
benefit to telehealth, to expand access to quality care in 
rural areas. We have had resources awarded to Avera Health in 
2018, that have helped support critical telehealth 
infrastructure and training throughout our State. That has 
allowed some of these communities to gain access to Avera's 
eCARE network, which includes emergency services, behavioral 
health services, and more.
    Based on your experience over the years in DLT, I would 
like to have you explain to the Committee the Federal 
Government's return on investment in these grants. In other 
words, if not for these grants, how would people in these rural 
areas be accessing care?
    Mr. Stanley. Thank you for your question. The telemedicine 
really does allow our behavioral health providers to provide 
services to these rural patients, and again, we cover a six-
county area, and so some of these are the most rural and also 
the most impoverished counties in the country. You are talking 
about some maybe grandparents raising children, incarceration, 
all these things that really are issues for access to care. 
Having our rural clinics with telehealth allows us to take care 
of that patient at a distance.
    Again, it is very challenging to recruit providers to a 
very rural area that does not really offer a lot in amenities. 
This is really an extender for us. We have a shortage of 
primary care physicians. It is challenging to get mental health 
nurse practitioners. This is really, I feel, the answer for us 
to meet that need.
    For example, we have medically assisted treatment. We have 
utilized that for our mothers. We realize we deliver about 
1,000 babies a year. Did you know that 250 to 300 of those 
babies are born addicted? Again, we use this medically assisted 
treatment program for the mothers who are willing.
    We built this trust relationship with these mothers that 
will work with us, but see, they have to be a part of a 
program, and that program includes counseling. It is not just 
medically assisted treatment. That allows them to stay in that 
program, because then they can go to one of the rural sites, 
because again, like I said, we cover a six-county area.
    I really want to thank the USDA for their support, and we 
really see the USDA as a partner.
    Senator Thune. Thank you. Mr. Chairman, thank you, sir.
    Chairman Roberts. I thank the Senator from South Dakota, 
former Presidential candidate.
    Mr. Sievers, you still out there?
    Mr. Sievers. Yes, I am, Mr. Chair.
    Chairman Roberts. Here is a flash for you. Last year the 
Warrior Biogas Project--partly this year--at the city-owned 
wastewater treatment plant in Dodge City, Kansas, started 
operations at its facility to capture and clean biogas produced 
from municipal and industrial wastewater for distribution into 
the Northern Natural Gas pipeline. It is a $9 million project 
designed to clean the biogas produced through the anaerobic 
digestion process treating wastewater from Dodge City residents 
and nearby National Beef processing plant.
    Dodge City, we used to say, don't worry about that smell. 
We just smell the money. That is not the case now. What is the 
case is they invited their Senator to come out and take a look, 
and I was literally blown away. Well, the wind blows a lot in 
Dodge City, but this is a different kind of circumstance.
    Thank you for your testimony, and I think that as this 
continues, there are a lot of answers here that we are coming 
up with.
    I want to thank all of the witnesses, especially. We talked 
about telemedicine, opioid addiction, mental health, and even 
suicide rates. I think the best program I know with regards to 
addressing rural development is something called farm income. 
This is the fifth year in a row where we have had prices below 
the cost of production. It is amazing to me that our situation 
is not worse than it is. Yet farmers know somehow how to keep 
going. They always put the seed in the ground and expect they 
are going to have a crop.
    I would just say, for the record, until we get this trade 
situation worked out, if, in fact, we are going to continue to 
do what we have done in the last, what, 40 years since I have 
been in public office, and that is to build our trade 
capability to not only feed this country but a troubled and 
hungry world.
    We have got to get USMCA passed. That is the big acronym 
for the new NAFTA. USMCA. I call it the United States Marine 
Corps Always, but maybe you have two up, one back, and we can 
get this job done.
    You have really contributed here, a great deal, with 
information on what we are doing on the local level, despite 
the fact that we have not achieved price recovery, which we 
simply must do. I thank you for your efforts, and I thank you 
for your testimony.
    To my fellow members, this will conclude our hearing today. 
To my fellow members, please submit any additional questions 
you may have for the record to the Committee Clerk five 
business days from today, or by 5 p.m. next Friday, November 
15th.
    The Committee now stands adjourned.

    [Whereupon, at 11:37 a.m., the Committee was adjourned.]

      
=======================================================================

                            A P P E N D I X

                            November 7, 2019

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                         QUESTIONS AND ANSWERS

                            November 7, 2019

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
